No. 19-930
IN THE

$>Upreme Qtourt of tbe mlniteb $>tates
CIC SERVICES, LLC,

Petitioner,

V.

INTERNAL REVENUE SERVICE; DEPARTMENT OF
TREASURY; UNITED STATES OF AMERICA,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that three copies of the Brief
for Amicus Curiae Chamber of Commerce of the United States of America in Support
of Petitioner in CIC Services, LLC v. Internal Revenue Service, No. 19-930, were
served via overnight mail on all parties required:
Patrick Strawbridge
CONSOVOY McCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
pa trick@consovoymccarthy.com

Noel J. Francisco
SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
su premectbriefs@usdoj.gov

Counsel for Petitioner

Counsel for Respondents

I declare under penalty of perjury that the foregoing is true and

Date: February 24, 2020

